<html>
<title> - S. 742 AND DRAFT LEGISLATION TO BAN ASBESTOS IN PRODUCTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





        S. 742 AND DRAFT LEGISLATION TO BAN ASBESTOS IN PRODUCTS

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2008

                               __________

                           Serial No. 110-96


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov









                   U.S. GOVERNMENT PRINTING OFFICE
45-680 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001













                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
ALBERT R. WYNN, Maryland             JOHN B. SHADEGG, Arizona
GENE GREEN, Texas                    CHARLES W. ``CHIP'' PICKERING, 
DIANA DeGETTE, Colorado              Mississippi
    Vice Chairman                    VITO FOSSELLA, New York
LOIS CAPPS, California               ROY BLUNT, Missouri
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff
                   Gregg A. Rothschild, Chief Counsel
                      Sharon E. Davis, Chief Clerk
                 David Cavicke, Minority Staff Director

                                  (ii)









          Subcommittee on Environment and Hazardous Materials

                   ALBERT R. WYNN, Maryland, Chairman
FRANK PALLONE, Jr., New Jersey       JOHN B. SHADEGG, Arizona
BART STUPAK, Michigan                     Ranking Member
LOIS CAPPS, California               CLIFF STEARNS, Florida
TOM ALLEN, Maine                     NATHAN DEAL, Georgia
HILDA L. SOLIS, California           JOHN SHIMKUS, Illinois
    Vice Chairman                    HEATHER WILSON, New Mexico
TAMMY BALDWIN, Wisconsin             VITO FOSELLA, New York
G.K. BUTTERFIELD, North Carolina     GEORGE RADANOVICH, California
JOHN BARROW, Georgia                 JOSEPH R. PITTS, Pennsylvania
BARON P. HILL, Indiana               LEE TERRY, Nebraska
DIANA DeGETTE, Colorado              MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
HENRY A. WAXMAN, California          TIM MURPHY, Pennsylvania
GENE GREEN, Texas                    JOE BARTON, Texas (ex officio)
JAN SCHAKOWSKY, Illinois
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                           Professional Staff

                    Richard Frandsen, Chief Counsel
                    Ann Strickland, Brookings Fellow
                         Karen Torrent, Counsel
                        Caroline Ahearn, Counsel
                         Rachel Bleshman, Clerk
                     Jerry Couri, Minority Counsel






                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Albert R. Wynn, a Representative in Congress from the State 
  of Maryland, opening statement.................................     1
Hon. John B. Shadegg, a Representative in Congress from the State 
  of Arizona, opening statement..................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     6
Hon. Hilda L. Solis, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................     8
Hon. Frank Pallone Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
Hon. Betty McCollum, a Representative in Congress from the State 
  of Minnesota, opening statement................................    10
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    11

                               Witnesses

James B. Gulliford, Assistant Administrator, Office of 
  Prevention, Pesticides, and Toxic Substances, Environmental 
  Protection Agency, Washington, DC..............................    32
    Prepared statement...........................................   283
    Answers to submitted questions...............................   179
Gregory P. Meeker, Geologist, U.S. Geological Survey, Denver 
  Microbeam Laboratory, MS-973, Denver, CO.......................    37
    Prepared statement...........................................    39
    Answers to submitted questions...............................   223
Linda Reinstein, executive director and co-founder, Asbestos 
  Disease Awareness Organization, Redondo Beach, CA..............    52
    Prepared statement...........................................    54
    Answers to submitted questions...............................   255
Margaret Seminario, director, safety and health, American 
  Federation Labor and Congress of Industrial Organizations, 
  Washington, DC.................................................    60
    Prepared statement...........................................    62
    Answers to submitted questions...............................   247
Roger O. McClellan, advisor, toxicology and human health risk 
  analysis.......................................................    71
    Prepared statement...........................................    73
    Answers to submitted questions...............................   234
Robert P. Nolan, International Environmental Research Foundation, 
  New York, NY...................................................    82
    Prepared statement...........................................    84
    Answers to submitted questions...............................   241
Richard A. Lemen, private consultant, occupational safety and 
  health epidemiology, and public health, Canton, GA.............   109
    Prepared statement...........................................   111
    Submitted questions \1\......................................   279
James R. Millette, executive director, MVA Scientific 
  Consultants, Duluth, GA........................................   130
    Prepared statement...........................................   132
    Answers to submitted questions...............................   216

                           Submitted Material

Arizona Rock Products Association, letter of February 27, 2008, 
  submitted by Mr. Shadegg.......................................   141
Business Association letter of February 27, 2008, submitted by 
  Mr. Shadegg....................................................   145
Center for Occupational & Environmental Medicine, P.C., letter of 
  February 27, 2008, submitted by Mr. Wynn.......................   148
EPA Technical Assistance on S. 742, submitted by Mr. Wynn........   150
Ernest E. McConnell, D.V.M., letter of February 25, 2008, 
  submitted by Mr. Shadegg.......................................   152
Petition by Physicians, Scientists and Occupational/Environmental 
  Professionals Opposed to the Present Version of the Ban 
  Asbestos Act, submitted by Mr. Wynn............................   155
Hon. Patty Murray, a Senator from the State of Washington, et al. 
  submitted statement, submitted by Mr. Wynn.....................   161
Ann G. Wylie, Department of Geology, University of Maryland, 
  submitted statement, submitted by Mr. Shadegg..................   164
John Gamble, Somerset, NJ, letter of February 25, 2008, submitted 
  by Mr. Shadegg.................................................   177
Christopher Weis, Senior Toxicologist, U.S. Environmental 
  Protection Agency, NEIC, Denver, CO, answers to submitted 
  questions......................................................   206
Aubrey Miller, Senior Medical Officer & Toxicologist, U.S. 
  Environmental Protection Agency, Region 8, Denver, CO, answers 
  to submitted questions.........................................   262

----------
\1\ Mr. Lemen did not answer submitted questions for the record 
    in time for printing.

 
        S. 742 AND DRAFT LEGISLATION TO BAN ASBESTOS IN PRODUCTS

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2008

              House of Representatives,    
                Subcommittee on Environment
                           and Hazardous Materials,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 12:36 p.m., in 
room 2322 of the Rayburn House Office Building, Hon. Albert 
Wynn (chairman) presiding.
    Members present: Representatives Pallone, Capps, Solis, 
Baldwin, Barrow, Green, and Shadegg.
    Also present: Representative McCollum.
    Staff present: Dick Frandsen, Caroline Ahearn, Karen 
Torrent, Rachel Bleshman, Lauren Bloomberg, Ann Strickland, 
Jerry Couri, David McCarthy, and Garrett Golding.

  OPENING STATEMENT OF HON. ALBERT WYNN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Wynn. Good afternoon, everyone. I would like to call 
the meeting to order. Today we have a hearing on S. 742, the 
Ban Asbestos in America Act of 2007, and draft legislation 
referred to as the committee print to Ban Asbestos in Products. 
For purposes of making opening statements, the chairs and 
ranking members of the subcommittee and the full committee will 
each be recognized for 5 minutes. All other members of the 
subcommittee will be recognized for 3 minutes. Those members 
may waive the right to make an opening statement, and when 
first recognized to question witnesses, instead, add those 3 
minutes to their time for questions. Without objection, all 
members will have 5 legislative days to submit opening 
statements for the record. The chair would now recognize 
himself for an opening statement.
    Today's legislative hearing is, as I indicated, on S. 742, 
the Ban Asbestos in America Act of 2007, and our draft 
legislation called the committee print to Ban Asbestos in 
Products. The Senate bill and the committee print would amend 
the Toxic Substances Control Act. We will not focus today on 
the research and study provisions in S. 742, involving certain 
Federal health agencies, since they are primarily within the 
jurisdiction of the Subcommittee on Health. Rather, we will 
focus on the provisions of S. 742 that amend TSCA.
    Each year, an estimated 10,000 Americans die as a result of 
asbestos exposure. According to an Environmental Working Group 
study, more than 43,000 Americans have died from asbestos-
related diseases since 1979. Asbestos is classified as a known 
human carcinogen, according to the World Health Organization, 
EPA, and other public-safety organizations. No safe level or 
threshold level of exposure to asbestos has been established.
    The primary human exposure pathway from asbestos is through 
breathing particles that are released into the air. Asbestos 
fibers can be released into the air as a dust when used in 
manufacture, processing, use, demolition, or disposal of 
asbestos-containing products. Medical studies show that people 
who are exposed to airborne asbestos have an increased risk of 
developing respiratory diseases such as asbestosis, a 
progressive, long-term disease of the lungs, which leads to 
scarring of lung tissue; mesothelioma, a rare form of lung 
cancer that is almost always fatal; and lung cancer, a 
malignant tumor that invades and obstructs the lungs' air 
passages.
    In a 1989 final rule, the EPA sought to phase-out and ban 
most of the asbestos-containing products manufactured in the 
United States. Unfortunately, EPA's rule was overturned in 1991 
by the Fifth Circuit Court of Appeals. As a result of the 
Court's decision, only six asbestos-containing products 
remained banned, flooring felt, roll board, corrugated 
commercial and specialty paper, and in new uses of asbestos in 
products that have not historically contained asbestos. 
According to the World Health Organization, with some 
exceptions relating to certain uses, more than 40 countries 
have banned asbestos, including all members of the European 
Union. Today, I am pleased to say that we are making progress 
towards a broad ban on asbestos in this country.
    Last October, the Senate unanimously passed S. 742 
introduced by Senator Patty Murray. The committee print 
contains many of these same provisions that amend ToSCA with 
certain changes and classifications. One of the most important 
changes in terms of protecting public health is that the ban on 
asbestos pertains to asbestos containing products. Based on 
technical comments provided by the EPA to our subcommittee, 
asbestos-containing products are defined as ``any product, 
including any part, in which asbestos is deliberately added or 
used, or which asbestos is otherwise present in any 
concentration.'' We have heard many concerns from Government 
officials and scientists and public health doctors and victims 
groups and labor groups that the one-percent threshold in S. 
742 is not protective of human health. It is not a health-based 
or risk-based standard. The 1-percent standard was adopted more 
than 30 years ago, and was related to the limit of detection 
for the analytical methods available at that time.
    As we read S. 742, it provides no authority for EPA to 
adjust the standards to conform to the advances in science and 
testing methodologies. In a 2004 memorandum, the EPA's Office 
of Solid Waste and Emergency Response stated that the use of a 
1 percent threshold as a trigger for cleanup of asbestos at 
Superfund sites may not be protective of human health. The 
memorandum also states that recent data from the Libby Montana 
Superfund site and other sites provide evidence that soil and 
debris containing significantly less than 1 percent asbestos 
can release unacceptable air concentrations of all types of 
asbestos fibers. At Libby, asbestos contamination from a nearby 
vermiculite mine has led to almost 200 deaths and 1,200 being 
diagnosed with lung abnormalities. Cleanup at Libby began in 
1999, and more than $180 million has been spent, to date, with 
more to be done.
    I understand that some have raised concerns about the 
possibility of asbestos in ambient air in the context of 
asbestos-containing products. As the legislation moves forward, 
we intend to work with all parties to address their concerns 
while maintaining public health protection.
    I look forward to hearing the views of our witnesses today 
on S. 742 and the committee print. I want to mention that we 
added a witness to the third panel for today at the request of 
the ranking member of the subcommittee, less than 48 hours 
before the hearing. While I don't intend this practice to 
become a precedent, I think in the spirit of cooperation, we 
wanted to certainly accommodate this request.
    At this time, I would like to enter in a statement. Senator 
Patty Murray, who introduced this bill, the Ban Asbestos in 
America Act of 2007, and Senator Johnny Isakson and Senator 
Barbara Boxer, cosponsors of the bill, have asked to submit a 
joint statement for the record, to present the merits of their 
legislation. Without objection, their joint statement will be 
included in the hearing.
    At this point, it gives me pleasure to recognize the 
ranking member of the Subcommittee on Environment and Hazardous 
Materials. I believe this is your first formal hearing, so I am 
pleased to recognize the gentleman from Arizona, Mr. Shadegg.

OPENING STATEMENT OF HON. JOHN B. SHADEGG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Shadegg. Thank you, Mr. Chairman, and I do want to 
acknowledge that this is my first hearing in the role of 
ranking member. I was able to secure that position upon the 
retirement of former Speaker Denny Hastert, and I am pleased to 
be here. As you know, you and I have worked together on many 
issues in the past and have had a cordial relationship, and I 
look forward to having that here on this subcommittee.
    I do want to thank you for holding this hearing on this 
very important legislation. I think it is a critically 
important piece of legislation. I have the greatest sympathy 
for the victims of mesothelioma-I have some training in how to 
say it-the victims and families. This disease and other 
asbestos-related illness are serious illnesses that cause 
chest, lung and gastrointestinal cancers. They are horrible and 
debilitating diseases that no one wants to see perpetuated or 
go on.
    In my State of Arizona, we do some asbestos mining, and in 
fact, we mine a unique form of asbestos called chrysotile. And 
years ago, when I was in the Arizona Attorney General's Office, 
we were shutting down a chrysotile asbestos site, and I went 
there and visited the workers, talked to the people on the 
site, and actually spent some time visiting with the life 
insurance salesmen who live in the area, who taught me a little 
bit about the difference between chrysotile asbestos and other 
forms of asbestos. So I think it is important that we shine 
light on this issue, that we study it, and that we consider it 
carefully.
    I would be remiss if I didn't note that I am somewhat 
regretful that this hearing is occurring late in the day, late 
in the week, such there are not as many members present as I 
think either one of us would like. It would be much preferable 
that the hearing on this important topic were occurring when we 
had a better opportunity for attendance.
    That being said, I am anxious to hear the testimony of our 
witnesses and to proceed. I believe that it is important to 
note that S. 742 did pass under unanimous consent with 100-
percent support and no dissent in the Senate. I understand that 
is the other body, and we should act in our own fashion, but I 
think we should do so carefully and deliberately.
    I must say, as an opening comment, that I am concerned 
about some aspects of the committee print. I am particularly 
concerned, and I will try to focus on this to the best I can in 
my questioning, with some of the definitions in the committee 
print. In the committee print, a new term ``asbestos-containing 
product'' appears. And Mr. Chairman, you just read this term, 
which defines products, and it says that the term covers any 
product, including any part of that product, to which asbestos 
is deliberately added, used in, or and you read these words, 
``is otherwise present in any concentration.'' I must say I 
have some concern with the language of ``otherwise present in 
any concentration'' because that is a vastly broader definition 
than is in S. 742, and I believe it raises issue of us pulling 
into this debate issues we do not intend to.
    You just noted that asbestos can be airborne in the dust. 
At least it has been my understanding that when you set a 
standard that says we are regulating every product which has 
asbestos in any concentration, it is my understanding that that 
can mean, for example, scotch tape, where, as it is being 
manufactured, an ambient particle of asbestos got onto the 
scotch tape. Suddenly, it becomes an asbestos-containing 
product, and falls under the entire rubric of regulation, for 
example, which would cover asbestos insulation, or asbestos 
intentionally put into a product such as a break line. So I 
think that definition is one that gives me some very severe 
concern.
    A second issue which I have in looking at the Senate past 
bill, 742, is issue of use by the Defense Department in 
defending this Nation and protecting our sons and daughters who 
are in uniform, and the different treatment of the two bills. 
It is my understanding of the wording of the committee print 
that under the committee print, the strictures on Defense 
Department are much more severe, much more problematic, and 
would open the Defense Department to citizen suits. I have 
concerns about citizen suits, certainly citizen suits against 
our Defense Department, at a time when they should be 
allocating all available resources to defending the Nation. So 
that is a second concern I have.
    The last concern that I want to articulate in my opening 
statement is that as I understand the committee print, it 
essentially provides that sand and gravel operations or 
aggregate operations are brought into the coverage of the bill, 
in a way that S. 742 does not do, and could be phenomenally 
expensive in that that would require the testing, essentially, 
of every single load of rock or gravel which is mined, because 
of the potential for asbestos, simply in the soil, which is 
scooped up by a sand and gravel operator and dumped into a dump 
truck, and as I understand the committee print, it would cause 
the seller of that aggregate, as he puts it into a dump truck, 
if that dump truck is going to sell it to me to put as my lawn 
as gravel, where we have gravel lawns to save water, to test 
every single load. I believe that that we need to be cautious 
here. Certainly, we want to take the steps necessary to protect 
human health, but I don't think we want to overreach in the 
drafting of that legislation or be overly broad, thus causing 
the legislation to be impractical.
    With that, I yield back the balance of my time.
    Mr. Wynn. I thank the gentleman for his opening statement. 
At this time, I am pleased to recognize the gentleman from 
Texas, Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the 
hearing. This is an important issue to the health and safety of 
American consumers and workers. Today, men and women and 
children across the Nation are unknowingly exposed to asbestos 
through their work, home, or everyday consumer products. Widely 
used in commerce for its strength, flexibility and resistance 
to heat and corrosion, asbestos is found in over 3,000 
products, including common items such as insulation, fabric, 
cement, and tiles. I represent the Port of Houston, and I have 
just dozens of seamen over the last 20 years who have been 
affected by asbestos exposure, and I have been to funerals 
where they have ultimately passed away from the process of 
inhaling that asbestos, the seamen who are working around the 
ships, and that is why I am glad this bill is before us.
    The EPA estimates that 27 million Americans were exposed to 
occupational asbestos exposure that can lead to health effects 
between 1940 and 1980. Today, approximately 1.3 billion 
construction and general industry employees face considerable 
asbestos exposure at the workplace. Exposure to asbestos can 
cause a variety of illnesses, including mesothelioma, lung 
cancer, and fibrosis of the lungs. The long latency period for 
the diseases means it can take decades before symptoms surface, 
even as long as 40 years, and again, I could almost sign 
affidavits to show that affect. Protective standards have been 
adopted and tightened over the years, but human health risks 
remain. That is why I am pleased the subcommittee is 
considering a legislation that attempts to reduce the risk of 
asbestos exposure.
    As said before, S. 742 had passed the Senate. The 
legislation has drawn bipartisan support and set a marker. The 
committee print adheres to the Senate bill with certain 
changes, including the scope of the prohibition, exempting 
certain caustics in aggregate products, and increasing criminal 
penalties for bill violations. This draft has potential to be 
an effective weapon in combating future asbestos exposure and 
health effects, and I look forward to the testimony, and I look 
forward, Mr. Chairman, for us moving the bill as expeditiously 
as possible. And I yield back my time.
    Mr. Wynn. I thank the gentleman. At this time, the chair 
would recognize Mrs. Capps, the gentle lady from California.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman. Thank you so much for 
holding this hearing. I am very much looking forward to hearing 
from our esteemed witnesses today.
    This legislation is so critical, and it is so important 
that we move forward on it right now. We cannot afford to wait. 
We cannot, in good conscience, continue to sit idly by while 
countless numbers of unsuspecting men, women and children are 
exposed to this toxin, in their homes, in their workplaces, and 
in their schools. The potential consequences of these exposures 
are so severe.
    Mesothelioma and other asbestos-related diseases continue 
to take a very serious toll on patients and their families. The 
latency period, as my colleague Mr. Green mentioned, for these 
diseases ensures that, unfortunately, we are going to continue 
to face many new cases in the years and decades to come, even 
should we completely ban asbestos. So we have to pass 
legislation that gives hope to those already suffering and 
exposed to asbestos, suffering from mesothelioma and these 
other dreaded asbestos-related diseases, while at the same 
time, we need to take aggressive steps to ban asbestos in order 
to protect future generations from exposure.
    I am so pleased that you mentioned the area, Mr. Chairman, 
where a situation did occur, Libby, Montana. I grew up a few 
miles from there, and I know, personally, of the devastation 
that operation, located in the most pristine and beautiful 
wilderness area, what has happened there to all of the 
unsuspecting workers who went to work every day in that 
operation, and how for their families, it is a like plague that 
has visited generation after generation of those families. That 
place, alone, is worth of all of our efforts. Unfortunately, it 
isn't the only place that we are talking about.
    And I am also very proud that the Mesothelioma Applied 
Research Foundation is headquartered in Santa Barbara, in my 
congressional district, in California. And I know, today, that 
we have several foundation board members with us, and in 
particular, I want to recognize Sue Vento, who is in the 
audience today. I am extremely grateful to have the opportunity 
to support legislation that honors Sue's husband, and our 
former colleague Bruce Vento. And I am pleased that we are 
joined by the person that has succeeded him in his 
congressional district, Betty McCollum, another esteemed 
colleague. Thank you, Sue, for all that you and the foundation 
have done and are continuing to do to help patients and their 
families and to raise the awareness to the public. So many 
people have no idea what we are even talking about.
    And unfortunately, there is no cure for this terrible 
disease. Better diagnostic and treatment options for those who 
are afflicted will only be possible with enhanced Federal 
commitment to better research, and we need that as well. Over 
the past several years, the foundation has used private 
donations to fund research and to identify better treatments 
for mesothelioma. It is high time that the Federal Government 
do its part in expanding research on this deadly cancer.
    I am committed to working with Chairman Wynn and Chairman 
Pallone to enact legislation this year that will ban asbestos 
and expand Federal research into mesothelioma and other 
asbestos-related diseases. I cannot emphasize enough how 
important it is to move quickly on this issue. We must make 
sure that that this is not the end of the road, today, for this 
crucial legislation, so I strongly urge this committee to pass 
legislation that steadfastly protects public health, while 
addressing the needs of current and future patients who are 
stricken and will be stricken--we know they will--with cancer 
and other conditions, because of previous and current exposure 
to asbestos.
    Thank you, Mr. Chairman. I yield back
    Mr. Wynn. I thank the gentle lady. At this time, the chair 
would recognize the distinguished vice chairwoman of the 
committee, the gentle lady, Ms. Solis from California.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Mr. Chairman, for having this 
hearing. It is a very important hearing today. I appreciate the 
testimony that we are going to hear from the witnesses, also.
    The issue of asbestos and related asbestos diseases is a 
very important issue for all of us to address. Asbestos, as you 
know, causes significant health risks. Each year, about 10,000 
people die as a result of occupational exposure, and tens of 
thousands of others suffer from lung conditions which make 
breathing so difficult, they can't even fully enjoy daily life. 
This is further complicated because symptoms may not show up 
for many years, until after. And I am concerned about the risk 
posed by workers, including the 1.3 million employees in the 
construction and general industries who face significant 
exposure on the job, and their families, who may be exposed to 
materials that are brought home, unintentionally.
    In 1989, the EPA attempted to ban all uses of asbestos, for 
which there were readily available substitutes. The ban was 
supported by 10 years of hearings and over 100,000 cases of 
records, including several hundred scientific studies, but the 
Fifth Circuit Court struck down the ruling, citing concerns 
with provision in the Toxic Substances Control Act. In the 
109th Congress, I authorized several amendments to fix the 
Toxic Substances Control Act, with regard to substances 
regulated through the Stockholm Convention. I recognize that if 
the EPA failed to regulate asbestos, then public health would 
continue to be at risk, but from asbestos and other known 
carcinogens. Unfortunately, these amendments were not fully 
considered, and asbestos and other known carcinogens are still 
threatening our workers and our families.
    The committee print before us today is a necessary step 
towards achieving needed protections for our community, and I 
am pleased that it recognizes the risk of asbestos to public 
health by prohibiting the importation, the manufacture, 
processing or disturbing in commerce of asbestos products at a 
level protective to our public health. I am interested in the 
views of our witnesses today regarding the exemptions, 
exemptions including both Senate bill 742 and the committee 
print before us, and I am also interested in ensuring that any 
legislation we consider in this body is fully protective of the 
health of our workers and our families. I recognize the work 
done by our colleagues in the Senate to move Senate bill 742 
forward and look forward to working with them to resolve any of 
the differences before we send a bill to the President's desk.
    As a member of the Health Subcommittee, I also hope that we 
can work together to develop Federal research assistance for 
asbestos and recognize the Senate efforts to include these 
provisions.
    Again, Mr. Chairman, I thank you for having this very 
important hearing, and I look forward to hearing the testimony 
of our witnesses. I yield back the balance of my time.
    Mr. Wynn. I thank the gentle lady for her statement. At 
this time, the chair would recognize the gentle lady from 
Wisconsin, Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    It is so important that we are shining a light on the 
harmful effects that asbestos-containing products can have on 
each and every one of our lives, and this hearing comes at a 
very critical time for millions of Americans who have been and 
are being exposed to asbestos in places where they live, work, 
or play, and many don't even know it. Thousands of people, 
every year, die from asbestos-related diseases-absolutely 
devastating those affected, including their families and their 
communities.
    We are long overdue in our action to ban asbestos. Decades 
have passed since the EPA first issued its final rule 
prohibiting certain asbestos-containing products. Yet court 
orders, red tape, and agency inaction seems to have stalled any 
real progress in terms of banning the products that are making 
people sick. And once again, our Nation finds itself behind the 
pack in terms of addressing this issue. More than 40 countries, 
including all members of the European Union have banned the use 
of asbestos.
    One of the real dangers with asbestos still being so 
prevalent today is that those people who have been or are being 
exposed may not show any signs of an illness until well into 
the future, and long after any prevention would have been 
helpful. And if we continue on this path without a 
comprehensive ban on the importation, manufacture, processing 
and distribution of asbestos, we are looking at decades, 
perhaps even generations more, of suffering from this 
devastating illness.
    Finally, let me add that as we move forward on this issue 
and this bill, it is important that we take into consideration 
all aspects of controlling asbestos exposure, through 
awareness, education, prevention, and research. I recognize 
that the resource component, similar to that in the Senate 
bill, is not included in the committee print before us today; 
however, knowing that the research and treatment for asbestos-
related diseases has been limited, I believe that we must 
consider authorizing Federal funding for research, and I would 
look forward to delving more deeply in this issue in the Health 
Subcommittee, on which I also sit, and also as this bill 
reaches the full Energy and Commerce Committee.
    Again, thank you, Mr. Chairman, for holding this hearing 
today, and I look forward to hearing from our witness panels.
    Mr. Wynn. Thank you for your opening statement. At this 
time, the chair would recognize the gentleman from Georgia, Mr. 
Barrow.
    Mr. Barrow. I thank the chairman, and waive opening 
statement.
    Mr. Wynn. The Chair would recognize the gentleman from New 
Jersey, Mr. Pallone.

 OPENING STATEMENT OF HON. FRANK PALLONE JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, and I will be brief, 
but I just wanted to thank you for holding these critically 
important hearing, and I understand that the research component 
of this legislation is in the Health Subcommittee, so I just 
wanted to commit to you that we will work to enact Ms. 
McCollum's legislation in both subcommittee and that the bill 
that bans asbestos and protects people from harmful effects 
from asbestos exposure is obviously so important because we 
want to prevent future generations from being exposed to 
asbestos.
    As we all know, the inhalation of asbestos fibers can cause 
serious illness. It is disturbing to me to think that there 
have been an estimated 27.5 million workers exposed to asbestos 
while on the job between 1940 and 1979. In 1989, the EPA issued 
a rule banning asbestos in any products that asbestos is 
deliberately added or which contains more than 1 percent by 
weight, but unfortunately, as you know, in 1991, an issue 
challenged the rule, and the EPA's ban was severely watered 
down. That is why I am glad that we are here to discuss this 
draft legislation that would ban asbestos in any product to 
which asbestos is deliberately added or used. It represents an 
incredibly strong standard and is an important step in 
protecting workers and everyday citizens from the ill effects 
of asbestos.
    Since the World Health Organization, the EPA, and other 
health and safety organizations have not established a safe 
level for asbestos exposure, it is imperative that we have the 
strongest possible ban, and I believe this legislation is the 
vehicle that will provide that ban.
    So I just want to thank you again, and I want to 
acknowledge the presence of Sue Vento in the hearing today. I, 
of course, had the privilege of serving with Congressman Bruce 
Vento before his untimely death in 2000, and in fact that she 
is carrying on with this, such an important bill, and a subject 
that impacted him. I really thank her for that. And thank you, 
Mr. Chairman.
    Mr. Wynn. Thank you. I look forward to working with you, 
and I want to recognize the outstanding work you have done on a 
host of health issues, and I think we are going to be able to 
move this measure forward rapidly.
    At this time, I would like to recognize one of our esteemed 
colleagues. She has been referenced earlier, Congresswoman 
Betty McCollum. She is not a member of the subcommittee, but 
with your indulgence, she is one of the distinguished sponsors 
of the House legislation to ban asbestos H.R. 3339, the Bruce 
Vento Ban Asbestos and Prevent Mesothelioma Act of 2007. I want 
to applaud her leadership on this issue and her hard work, and 
certainly, we would like to hear comments that she might choose 
to make at this time.

 OPENING STATEMENT OF HON. BETTY MCCOLLUM, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Ms. McCollum. Thank you, Mr. Chairman. I thank you so much 
for holding this hearing. Thank you, Ranking Member Shadegg, 
for your work on this important piece of legislation, and Mr. 
Pallone, for your commitment to hear the related issues in your 
committee.
    I really thank everyone for being here to take the time to 
learn about this current situation, explore ideas and to come 
forward with solutions. I am proud to have introduced the Bruce 
Vento Ban Asbestos and Prevent Mesothelioma Act, H.R. 3339, the 
companion bill to Senate 742.
    Congressman Vento was my predecessor and my dear friend, 
and I wish he was the one sitting here today. I want to thank 
Sue for her help and her support, and all of those who are here 
with her today, and those who can't be with her today, who have 
worked on this issue. They have been tireless advocates, and 
they have really represented well the families who live with 
this disease.
    As it has been said, millions of Americans are exposed to 
asbestos every year, and it is long past time that we join the 
40 other countries that have banned asbestos. The Senate has 
been working hard on this bill for years. It was finally able 
to pass it unanimously at the end of the year. Senator Murray 
and Senator Isakson deserve a great deal of thanks for all of 
their hard work and dedication on this issue. It is my sincere 
hope the House will also have the opportunity to pass a bill to 
ban asbestos.
    Once again, I thank the chairman, the committee staff, and 
the full committee for taking up this important issue and 
allowing me a few minutes here today. I thank you, and I look 
forward to hearing how this is discharged later.
    Mr. Wynn. Well, thank you very much. I also want to 
recognize Ms. Vento. I also, along with many people, served 
with your husband. He was a great man and a real credit to this 
House, and I think it is great that Ms. McCollum is recognizing 
his memory through this effort.
    This will conclude the opening statements by members.
    Other statements for the record as well as the text of the 
committee print will be placed in the record at this time.
    [The prepared statement of Mr. Dingell and the committee 
print follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wynn. At this time, we will turn to our first witness 
panel. It is a single witness. I am very pleased to welcome Mr. 
James Gulliford, Assistant Administrator at the Office of 
Prevention Pesticides and Toxic Substances with the U.S. 
Environmental Protection Agency. We will have a 5-minute 
opening statement from Mr. Gulliford, the prepared testimony 
submitted in advance of the hearing will also be made part of 
the hearing record.
    Mr. Gulliford?

   STATEMENT OF JAMES B. GULLIFORD, ASSISTANT ADMINISTRATOR, 
 OFFICE OF PREVENTION, PESTICIDES, AND TOXIC SUBSTANCES, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Gulliford. Thank you. Good afternoon, Chairman Wynn, 
Ranking Member Shadegg, and member of the subcommittee. Thank 
you for the opportunity to talk with you today, and I ask that 
my entire written testimony be included as part of the record.
    I am here today to discuss EPA's efforts of asbestos 
control under the Toxic Substances Control Act and to share 
information on legislation that is pending with the 
subcommittee to ban asbestos. EPA believes a legislative 
approach to address this issue may be an effective away of 
further reducing the risks from asbestos, providing it is 
carefully crafted and effectively focuses on risk reduction. 
And as demonstrated through previous meetings with your 
committee staff prior to this hearing, we stand ready to 
continue to work with your committee.
    We all agree that exposure to asbestos remains a public 
health concern due to its continued use and presence in 
building and products. While the disease rate may slow over 
time as use declines, given the severity and negative outcomes 
associated with asbestos-related diseases, actions to address 
the remaining uses are important to further reduce disease. For 
decades, a number of Federal agencies have regulated asbestos-
containing products, wastes and releases, and this work has 
reduced exposures. In 1989, as has been pointed out, EPA 
promulgated final regulations under section 6 of TSCA to ban 
and phase out asbestos in most products. However, in 1991, the 
U.S. Court of Appeals for the Fifth Circuit overturned portions 
of the asbestos-product ban.
    Following the court decision, only a few asbestos uses 
remained banned, along with new uses of asbestos. Nonetheless, 
EPA continued its work to reduce asbestos exposure and risks in 
other priority areas. For example, in building asbestos removal 
is not usually necessary, unless the material is damaged or 
disturbed through demolition or renovation activities. So our 
focus is on preventing exposure by teaching people to recognize 
asbestos-containing materials, to monitor them, and effectively 
manage them in place. EPA also regulates the release of 
asbestos from factories and during building demolition or 
renovation under the Clean Air Act.
    In a number of sites across the country where environmental 
releases or threatened releases can harm public health or the 
environment, EPA also performs asbestos cleanups under the 
Superfund program. As has been pointed out, one of the largest 
asbestos-remediation efforts is the asbestos-contamination 
problem at the Libby, Montana Superfund site. EPA has been 
working closely with the community in Libby to clean up 
contamination and reduce risks to human health.
    On science, many questions remain about asbestos, including 
areas such as toxicology, epidemiology and exposure assessment. 
EPA has a number of ongoing activities to address these various 
uncertainties, including research to address data gaps on 
health effects as well as assessing risks from exposure to 
asbestos and related materials.
    After preliminary review, we do have concerns with some of 
the provisions in the draft bill, such as the provision to 
regulate aggregate and the compliance-testing requirement, and 
we may have additional concerns as the administration completes 
its review. However, EPA believes that asbestos does not belong 
in products and safer and equally efficacious and cost-
effective substitutes exists. And EPA appreciates the 
opportunity to continue to provide technical assistance to the 
committee, and we will also continue to review the draft bill.
    So thank you for invitation to appear today before the 
subcommittee, and I will be pleased to answer any questions.
    Mr. Wynn. Thank you very much for your testimony. Let me 
recognize myself for questions at this time, and indicate that 
I appreciate the technical assistance that you and the EPA 
staff have provided to our subcommittee.
    The first question I want to ask you, though, is do you 
agree that the 1 percent threshold or cut-off level for 
regulation in the Toxic Substances Control Act that was used by 
the Senate as the standard for the prohibition in S. 742 was 
established on the basis of analytical capability in 1973 and 
does not reflect current science?
    Mr. Gulliford. Thank you, Congressman Wynn. The 1 percent 
standard was established in the AHERA statute, and it is, as 
you said, established at the time primarily on the basis of our 
analytical ability to detect asbestos and asbestos fibers. The 
1 percent standard is not a risk-based health standard, so I 
would agree exactly with what you said.
    Mr. Wynn. Thank you. That is a very important point that it 
is not risk based or health based.
    The second question I wanted to ask is that almost all of 
the EPA technical assistance suggested changes to S. 742, were 
incorporated in the committee print. I would like highlight a 
couple of EPA suggestions. Would you agree that to protect 
public health and the environment from asbestos hazards and to 
improve the effectiveness of the legislation, the ban should 
target any products in which asbestos is intentionally added or 
present as a contaminate?
    Mr. Gulliford. Yes, we do agree with that. That was part of 
our technical assistance and our discussions with committee 
staff because we know for a fact, and particularly we learned 
it in the Libby situation, that soil and debris that does 
contain less than 1 percent of asbestos can release 
unacceptable air concentrations of these types of asbestos. So 
it is important, and we have no standard, we have no threshold 
under which we believe that there is no threat or danger from 
an asbestos exposure.
    Mr. Wynn. Thank you. At this time, I would like to ask 
unanimous consent that EPA's technical assistance comments on 
S. 742, dated November 2, 2007, be put into the record. Without 
objection, so ordered.
     The next question I wanted to ask you is whether it is 
true that EPA is not aware of any commercial uses of asbestos 
other than diaphragms for existing chlor-alkali electrolysis 
installations which do not have non-asbestos alternatives?
    Mr. Gulliford. We think that the opportunity that the bill 
allows for exemptions to be established is an important one 
because there may be uses for asbestos that are appropriate. 
There may be ways, for example, as you mentioned in the chol-
ralkali facilities where the exposure in the use of asbestos 
can be mitigated and protected in such a way that there is 
virtually little risk to human health or the environment. So we 
do agree with the process to examine exemptions, but we do 
believe that it should be a very tight exception and that 
clearly, we should proceed, again, with respect to a ban, to 
those questions where are there are alternative for use, they 
are equally efficacious, they are cost effective, and again, 
are more protective of human health and the environment.
    Mr. Wynn. I think what I am trying to get at is are you 
aware of any situations other than chloroalkali electrolyses 
installations where there are not non-asbestos alternatives? 
And obviously, that could change, but based on what you know 
today?
    Mr. Gulliford. We know that, clearly, there are uses in 
effect that we would not ask that they be removed, for example, 
asbestos in place in cars and in homes, so the fact that we 
have restricted those from the requirements that they be banned 
will allow continued commerce in that if a person has a home 
with asbestos products in it, that homes can continue to be 
sold without removing those, again, if they are safe it the 
situation that they are used.
    Mr. Wynn. But what I am trying to get, and I don't want to 
belabor this, but the existence of alternatives is fairly 
widespread. Are you aware of any situations where there are not 
alternatives, other than the one that I referenced at the 
beginning of my question?
    Mr. Gulliford. I agree that for most uses, we believe that 
there alternative that are commercially available, and I, 
myself, am not aware off the top of my head of other existing 
uses for which there are no alternative, but as you indicated, 
I will not rule that out.
    Mr. Wynn. OK, thank you very much for your testimony and 
answering the questions I just raise. At this time, I would 
defer to my colleague, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman, and thank you, Mr. 
Gulliford. I appreciate your work on this issue.
    You indicated that a portion of the standard, which is 
written in the committee mark, which talks about asbestos which 
is deliberately added, and as I understand it, you testified 
that the 1 percent standard is not a risk-based standard. It 
was based on ability to detect at the time. Is that correct?
    Mr. Gulliford. Yes, it is.
    Mr. Shadegg. You heard my opening statement in which I 
expressed concern that the former definition of asbestos-
containing products in the committee mark, which says 
``otherwise present in any concentration'' sets a zero 
standard, does it not?
    Mr. Gulliford. It could be interpreted that way, yes.
    Mr. Shadegg. Is there a grant of authority to EPA to adopt 
any standard other than a zero standard under that language, 
``any concentration?''
    Mr. Gulliford. Yes, virtually all of our standards are 
based on risk, so zero-based standards are not a necessary 
standard for EPA to go to.
    Mr. Shadegg. But there is no mention of risk in this 
language.
    Mr. Gulliford. As we provided input on that issue, we did 
not mean for it, for example, as you indicated in your opening 
remarks, to apply to a fiber that may fall on a piece of tape 
in manufacture. But I think it is very important that we 
recognize that we don't have a risk-based standard that says 
that there is an acceptable level of asbestos.
    Mr. Shadegg. So right now, if you set any standard above 
zero, if you set a standard that would tolerate an ambient 
piece of asbestos dropping on a piece of scotch tape, since it 
says any, you could be sued for any standard other than zero, 
correct? Or is there risk language that I don't see in the 
bill?
    Mr. Gulliford. I am not sure that I understand your 
question. It is not our intent that this definition would apply 
to the example that you gave.
    Mr. Shadegg. It is very interesting in this hearing room, 
but it is not going to be very interesting to a court. I mean 
what I am concerned about is the court is going to say in in 
any concentration means just exactly what it says in plain 
English. Now, I know judges like not to read plain English, but 
I read that as creating a huge issue.
    Let me ask another question. You said that the 1 percent 
standard was a statutory standard. It was set in the statute.
    Mr. Gulliford. Right.
    Mr. Shadegg. The committee mark sets a statutory standard. 
It does not leave it to the discretion of the agency. Have you 
not found over the years that it is better to give the agency 
discretion to set the standard, for example, based on risk, 
rather than have the Congress set the standard? I mean, isn't 
that what you are telling us is the problem with the 1 percent 
standard?
    Mr. Gulliford. I think what I would try communicate in that 
is in this case, asbestos, much like products like PCBs were in 
the TSCA original legislation, there are products such as that 
where a mandatory ban is a very effective way to deal with 
products, again, that we don't believe there is an appropriate 
place for, products that contain asbestos in the marketplace, 
again, unless there is----
    Mr. Shadegg. So is EPA saying it wants a zero-tolerance 
standard? None? Zero?
    Mr. Gulliford. I still stand by the definition that we 
gave, but we did not offer that language, again, with the 
intent that it be exclusively a----
    Mr. Shadegg. So the any concentration is yours. You want it 
to mean zero?
    Mr. Gulliford. Again, the reason I am saying that, as I 
stated before, is because we do not have a risk-based standard 
with respect to asbestos to suggest at some certain level of 
asbestos exposure it is safe.
    Mr. Shadegg. OK, I need to move onto other issues for time 
reasons. Have you looked at the exemption this legislation 
provides for sand and gravel operations, and would you agree it 
provides that? Sand and gravel operations or aggregate 
operations can get an exemption if they certify that the load 
tested is below 25 percent for each load and that they then 
report that to the purchaser of the load?
    Mr. Gulliford. We have concern for the way that this 
language has appeared, again, in the committee print, and we 
have not had an opportunity to discuss that with the sand and 
gravel people, so we have----
    Mr. Shadegg. So you are open to discussing those issues. 
Are you also open to discussing my concern about the ``any 
concentration'' language?
    Mr. Gulliford. Yes, I am.
    Mr. Shadegg. OK, great. Last issue: the words ``citizens'' 
do not appear in the bill, but they are otherwise in TSCA. Do 
you agree with me that under the way the committee print is 
written, a citizen suit may be brought against the Defense 
Department under this legislation, is that correct?
    Mr. Gulliford. I have not have an opportunity to discuss, 
again, the committee print with the Department of Defense. We 
do, absolutely, agree with that. There are defense-related 
needs for asbestos and asbestos-containing products.
    Mr. Shadegg. You wouldn't advocate citizen suits against 
the Defense Department, would you?
    Mr. Gulliford. I would not. And we, also, though would 
defer to the Department of Defense, and NASA, for example, for 
their space applications as well, their judgment in the 
importance of those exemptions.
    Mr. Shadegg. Do you know if the Defense Department has 
taken a position on the committee mark?
    Mr. Gulliford. I do not know.
    Mr. Shadegg. Thank you. Thank you, Mr. Chairman.
    Mr. Wynn. Thank you, and the gentleman from Georgia, Mr. 
Barrow, for questions.
    Mr. Barrow. Thank you, Mr. Chairman. I won't be long. I 
just have a couple of questions.
    Mr. Gulliford, in between the Senate version, which has a 1 
percent by weight standard, and the House committee print, 
which has issues which have been raised by Mr. Shadegg and 
others, how does the standard vary in the 40-or-so countries 
that have a ban? A ban can mean more than one thing, obviously, 
and I read in the materials, for example, that Japan has a 0.1 
of 1 percent standard. Do you have any ideas of how the bans 
and the various degrees of bands tend to vary in terms of the 
scope of the prohibition?
    Mr. Gulliford. I do not know the answer to that. I don't 
know the basis for any standard that has been set 
internationally or by individual countries internationally, nor 
do I know the basis for the actions that the EU took, for 
example.
    Mr. Barrow. I can see the commonsense of not trying to 
eliminate from products that are in the air we breathe the 
ground we walk on at the same time. I can see that you want to 
avoid a loophole that is going to create an opportunity for any 
exposure that is greater than necessary and that not have any 
appreciable benefit to go along with the cost or risk to go 
along with it. I am just wondering what other countries are 
using as benchmarks in defining their band for this. I haven't 
seen anything that looks quite like the committee print in 
anything that has been referred to in other countries, but it 
may be they have a similar comprehensive or far-reaching, but 
more commonsense interpretation of how it applies. Can you 
guide us in that? Can you give us any insight in to that?
    Mr. Gulliford. We would be happy to look into that and 
report back to the committee.
    [The prepared statement of Mr. Gulliford appears at the 
conclusion of the hearing.]
    Mr. Barrow. I thank you, Mr. Chairman. That is all I have.
    Mr. Wynn. I thank the gentleman for his questions. It was 
certainly on point. I believe that concludes all of the 
questions for this panel, and I want to thank you for your 
testimony.
    At this time, I would like to welcome our second panel. 
Gentlemen, thank you very much for coming. Before us today, I 
would like to introduce, first all of the panelists. We have 
with us Dr. Aubrey Miller, Senior Medical Officer and 
Toxicologist at the U.S. Environmental Protection Agency in 
Region 8. Next, we have Christopher Weis, Senior Toxicologist, 
U.S. Environmental Protection Agency, NEIC. And third, we have 
Mr. Gregory Meeker, a geologist at U.S. Geological Survey. I 
would like to clarify that only Mr. Meeker will be making an 
opening statement. However, the other panelists will be 
available to answer questions at the appropriate time. At this 
point, I would like to recognize Mr. Meeker for his testimony. 
Again, thank you for being here.

  STATEMENT OF GREGORY P. MEEKER, GEOLOGIST, U.S. GEOLOGICAL 
          SURVEY, DENVER MICROBEAM LABORATORY, MS-973

    Mr. Meeker. Thank you, Mr. Chairman, and members of the 
subcommittee, thank you for the opportunity to present 
testimony on the mineralogy and geology of asbestos. My name is 
Greg Meeker, and I am a geologist at the U.S. Geological 
Survey.
    Asbestos is a term applied to a special group of minerals 
that form as long, very thin fibers that usually occur in 
bundles. When handled or crushed, the bundles readily separate 
into individual fibers. This type of mineral growth is called 
asbestiform. The definition for asbestos is based on the 
proprieties that make it valuable as a commodity. Although 
there are many asbestos minerals, some commercial and 
regulatory definitions of asbestos focus of chrysotile and 
several members of the amphibole mineral group, including the 
asbestiform varieties of the minerals riebeckite, grunerite, 
anthophyllite, actinole and tremolite. Other amphiboles are 
known to occur in the fibrous and asbestiform habit, but have 
not been utilized commercially. These include the minerals 
winchite and richterite.
    The academic mineralogy community has long classified 
minerals by name. This mineral nomenclature has evolved 
dramatically over the years and continues to evolve. The 
current academic nomenclature for amphiboles is endorsed by the 
International Mineralogical Association. The Libby, Montana 
amphibole provides an excellent example of the difficulties 
that have arisen from commingling of different amphibole 
nomenclatures. During the years that the Libby mine was active, 
geologist, miners and regulators called the Libby amphibole 
tremolite, soda tremolite, sodium-rich tremolite and in one 
case richterite. Beginning in 2000, mineralogists began to 
reinvestigate the Libby amphibole and apply the current 
academic nomenclature, identifying it as winchite, richterite 
and tremolite. These findings have generated confusion in the 
asbestos community regarding the identification of Libby 
amphibole and whether or not the material is regulated. 
However, there is no indication that the regulators intended 
different treatment for what remained the same underlying 
substance during this time period. In this example, the 
International Mineralogical Association, inadvertently 
redefined the regulated material for reasons totally unrelated 
to asbestos regulation.
    Historically, most commercial asbestos used in products has 
been chrysotile. Chrysotile tends to have very thin fibers that 
are often very long and flexible. Amphibole asbestos fibers, 
however, can display a large range of shapes and vary from thin 
to thick, relatively short, and brittle. Other particle types 
are often referred to by mineralogists as fibrous, acicular, 
and prismatic. There is currently considerable disagreement in 
the asbestos community about how to distinguish these particle 
types in a mixed sample and more importantly how these 
different particle types relate to toxicity.
    [Poster.]
    Mr. Meeker. This poster illustrates the different particle 
shapes that can be encountered in a single study area or 
sample, showing the transition from asbestiform in letter D to 
acicular in letter F to prismatic in letter I. Respirable 
fibers are extremely small. As an example, a soil or aggregate 
containing 0.25 percent respirable amphibole fibers could 
contain more than 25 million fibers per cubic centimeter. The 
degree to which respirable fibers can be liberated into the air 
by disturbance and become an inhalation hazard depends on many 
variables. Therefore, reliable determination of actual risk by 
direct measurement of the amount of fibers in the soil or 
aggregate would be extremely difficult.
    Thank you for the opportunity to present this testimony. As 
a non-regulatory natural science agency, the USGS works closely 
with other Federal agencies and nonFederal stakeholders to help 
answer many important questions regarding the nature of 
asbestos-related minerals and to provide important information 
about where asbestos minerals occur in the United States. I am 
pleased to answer any questions that you might have.
    [The prepared statement of Mr. Meeker follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you very much, Mr. Meeker. We certainly 
appreciate your testimony. You are providing us with a very 
good education. We will see if our questions bear that out.
    I would like to recognize myself at this point for 
questions for 5 minutes. You mentioned the 0.25 percent 
standard. I would like to ask about allowing products with up 
to 1 percent asbestos to be imported, manufactured, and sold in 
the United States. How many fibers of asbestos would you expect 
to find in a product that contains 1 percent asbestos?
    Mr. Meeker. That is difficult to answer because every 
material would be different, but it could be as high as 100 
million fibers per cubic centimeter.
    Mr. Wynn. Would you say that again please?
    Mr. Meeker. It could be as high as 100 million fibers per 
cubic centimeter.
    Mr. Wynn. OK, Dr. Miller, can exposure to products and 
materials containing less 1 percent cause disease?
    Mr. Miller. Clearly, exposure to products containing less 
than 1 percent can generate very high levels of exposure which 
would definitely be responsible for causing disease in the 
population, workers or others that may come into contact with 
such products or disturb such products might have exposures 
that would be consistent with what we have seen in populations 
that have been studied across the country that have developed 
disease commensurate with those exposures.
    Mr. Wynn. What are some of the diseases that you have been 
able to observe?
    Mr. Miller. Well, the diseases that we see, regardless of 
whether it was from a product that was less than 1 percent 
asbestos or other materials containing higher concentrations of 
asbestos is the same diseases that we see across the board with 
asbestos exposures. Whether it is from chrysotile or amphibole 
exposures, you will see mesothelioma, lung cancers and 
fibrogenic lung disease consistently with respect to these 
exposures.
    Mr. Wynn. Let me go back to you, Mr. Meeker. Do all labs 
determine the asbestos content of a product in the same way?
    Mr. Meeker. The labs are supposed to follow methods that 
have been validated; however, the methods are very subjective, 
and so if you were to take the same sample from one lab to the 
next, you might get a very different result from the same 
sample.
    Mr. Wynn. Dr. Weis, has the United States Government, to 
your knowledge, or private parties for that matter conducted 
research on asbestos exposure resulting from the manufacture or 
use of products that contain small amounts of asbestos?
    Mr. Weis. Yes, Chairman Wynn, there are a number of 
studies, in fact, by our Government, by the Canadian 
Government, by private individuals and industry scientists that 
indicate concentrations far below 1 percent, as low as 0.001 of 
a percent can generate airborne concentrations of concern for 
exposure.
    Mr. Wynn. Could you provide the subcommittee with those 
studies please?
    Mr. Weis. Yes, sir.
    Mr. Wynn. That would be very helpful if you could do that.
    Also, I would like to ask you, as a toxicologist at EPA you 
study risk to human health. When you studied the amount of 
asbestos people are being exposed to, why is it so important to 
measure asbestos in the air?
    Mr. Weis. Very important question. Asbestos is a problem 
when it is breathed in. There are also some concerns for 
ingestion, but those are of far less importance to us. And so 
when we measure risk from exposure to asbestos, we always look 
for airborne measurements. I think Mr. Gulliford made it clear 
that measurements in bulk materials are not and never will be 
risk based.
    Mr. Wynn. I wanted to ask you one other question. What, 
exactly, are cleavage fragments?
    Mr. Weis. That question, actually, might be better answered 
by Mr. Meeker, who is an expert in mineralogy.
    Mr. Wynn. Mr. Meeker?
    Mr. Meeker. Cleavage fragments are particles that are 
defined because they are broken. They cleave along specific 
directions in the crystal, and so by definition, cleavage 
fragments have to be crushed or milled during some process.
    Mr. Wynn. Thank you very much for your testimony, 
gentlemen. Mr. Shadegg? I see this is going to a very 
interesting experience. We are going to have fun here. The 
chair recognizes Mr. Shadegg for questions.
    Mr. Shadegg. Thank you, Mr. Chairman. Let me begin with a 
question that I at least want to get very clear in my own mind. 
We are talking about in the standards set here 1 percent by 
weight in a given product, which is the standard used in S. 
742. And when we talk about aggregation this bill, they are 
talking about 0.025 percent, again by weight. Obviously, the 
concentration of asbestos in a product is one issue. But the 
length and intensity of exposure is another issue. The point 
being, each of you said you could be exposed to dramatically 
less than 1 percent and have it be dangerous and, indeed, 
disease causing. And I believe, Mr. Meeker, you said, or maybe 
you all said, that exposure to less than 0.25 percent could be 
disease causing. I presume that if you were exposed to 0.25 for 
a nanosecond, that would be one thing. If you were exposed to 
it for 24 hours a day, 7 days a week for 15 years, that would 
be a different level of exposure. So there are two factors, not 
just the concentration in the product, which is measured as a 
percent by weight, but also the length and intensity of the 
exposure, correct? You would all agree to that, I assume? OK.
    Second question, I want to talk a bit about chrysotile 
asbestos because I am trying to learn about it. I thought I 
learned about it a few years back. Dr. Miller, you indicated 
that there are studies showing disease-you may not have said 
all forms of asbestos, but you said chrysotile asbestos and 
amphiboles. Have there been specific studies done on diseases 
caused by exposure only to chrysotile asbestos?
    Mr. Miller. Yes, there have.
    Mr. Shadegg. Can you supply those to me?
    Mr. Miller. Yes, we can.
    Mr. Shadegg. Does that fall in the expertise of either of 
the other gentlemen?
    Mr. Weis. I would agree with Dr. Miller on that.
    Mr. Shadegg. I would very much like to see the studies that 
focus on exposure to chrysotile asbestos.
    Let me ask another question on that point. Is there a 
debate within kind of the asbestos industry or community over 
the degree of disease linked to exposure to chrysotile as 
opposed to amphibole asbestos?
    Mr. Miller. Yes, there is, and the discussion really 
focuses on the fact that we recognize that all of the asbestos 
forms are toxic, but it appears that the amphiboles may be more 
toxic with respect to the causation of mesothelioma than 
chrysotile asbestos, and that is the focus of the discussion. 
But with respect to lung cancer and fibrogenic lung disease, it 
is clear that they all are toxic.
    Mr. Shadegg. Thank you. That is what I thought. If you can 
find relatively layman-eqsue studies that show, you know, that 
chrysotile is less causative of mesothelioma but is causative 
of that together, that would help me as well.
    Mr. Meeker, I want to ask you, I understand the distinction 
between chrysotile and amphibole to be that the fibers in 
amphibole are brittle and break, and as I understood it when I 
learned it, have a tendency to stick in the lung by essentially 
like tiny little pins, and that the difference between 
amphibole and chrysotile is that chrysotile is soft. It is more 
like string and less like something brittle which can form a 
sharp point and stick. Is that your understanding? I understand 
that is a layman's explanation, but----
    Mr. Meeker. The poster I have here, I don't have a picture 
of crystatile up there, but in letter A, that would be similar 
to what crystatile looks like. That is an amphibole, and 
amphibole can show a wide range of shapes and sizes and 
flexibility, and so the amphibole in letter A is from new 
Caledonia, and it appears to be flexible and very thin. Letter 
B is an amphibole from the NIST, National Institute of 
Standards and Technology, certified reference material. It is a 
tremolite amphibole standard, and I think you can see, there, 
that that is what you were describing as more like pins, and 
you can find examples that grade from one to the next, even in 
the same sample, so it is not always one way or the other.
    Mr. Shadegg. Sounds like I get to learn a lot more. Thank 
you.
    Mr. Wynn. At this time, the chair is pleased to recognize 
the gentlelady from California, Ms. Capps, for questions.
    Ms. Capps. Thank you, Mr. Chairman.
    Dr. Miller, if I could ask you a question please. This 
committee is considering banning asbestos down to 0.25 percent 
by weight for byproducts of stone, sand and gravel. Is this an 
acceptable threshold for human exposure by this industry?
    Mr. Miller. Well, we find that continued disturbance of 
products, even at that low-level of contamination will generate 
airborne exposures that can be very, very hazardous. As a 
matter of fact, it is easy to measure the exposures in the air. 
And as Dr. Weis alluded to a moment ago, if you have materials 
that may have 0.25 percent levels of asbestos contamination or 
lower, if you disturb them, we can easily measure the exposures 
in the air, and clearly, we know these exposures are associated 
with disease and readily present an opportunity for exposure, 
not only to workers, but to others across America.
    Ms. Capps. No matter how minimal?
    Mr. Miller. No matter how minimal.
    Ms. Capps.
    Mr. Miller. Again, it will vary with the material.
    Ms. Capps. Dr. Weis, I have two questions for you if I 
could please. I understand that EPA is currently working on a 
test method that would be used to measure asbestos releases 
from soils and other solids. I think that follows on with what 
Dr. Miller just said because when it is disturbed, that is 
where we need to really measure if we can. Can you tell me what 
the status of that work is?
    Mr. Weis. Yes, Congresswoman Capps. As has been mentioned 
several times this morning, we are interested primarily in 
exposure in air. And so the agency has been working hard over 
the last several years, actually, in developing a rapid 
technique for disturbing asbestos contaminated materials, 
sending fibers into the air, and then measuring the air where 
our measurements are far more precise than they are in the bulk 
materials. That work is underway. I can't tell you exactly what 
the schedule for that is. I can tell you that there is 
tremendous interest in pushing that forward.
    Ms. Capps. Are there any limits to your being able to do 
it? Is there the technology to measure?
    Mr. Weis. I believe the technology is there, yes, 
absolutely.
    Ms. Capps. So that is where any research dollars should 
continue?
    Mr. Weis. Yes, it is a matter of time and resources.
    Ms. Capps. I hear you. You just have to follow the testing, 
right? But the more resources we have, the faster you could 
move, too.
    Mr. Weis. I think that is true, yes.
    Ms. Capps. Yes, let me ask you in anticipation of testimony 
that is going to be given in the next panel, Dr. Nolan in his 
written statement says that OSHA does not regulate these non-
asbestos fibers after having a rule-making to determine that 
they do not present health hazards similar to asbestos. Will 
you evaluate that statement for me?
    Mr. Weis. What I can say, Congresswoman, is that OSHA says 
in their regulations if you are in doubt, then the fibers 
should be counted. I think Mr. Meeker has alluded to the fact, 
quite clearly, that measurements are subjective, and they are 
often to the opinion of the analyst, and OSHA says quite 
clearly in their regulation if you are in doubt of what this 
material is, then, it should be counted as a fiber.
    Ms. Capps. Just a recognition of it as a fiber, you don't 
have to measure it or anything else, the recognition is enough 
of an acknowledgment?
    Mr. Weis. The particle must have the same shape and form as 
a regulated fiber, but if it does, regardless of its chemistry 
or subtle morphology, if the analyst cannot determine using the 
technology they have whether it is a fiber, it should be 
counted. That is what OSHA says.
    Ms. Capps. And that is sort of the standard now?
    Mr. Weis. That has been the standard for a long time.
    Ms. Capps. That is the end of my questions. Thank you very 
much.
    Mr. Wynn. Thank you very much.
    Mr. Weis. Thank you.
    Mr. Wynn. Gentlemen, again, thank you very much for your 
testimony and answering our questions. You may be excused.
    All right, I think we are ready to proceed with our third 
panel. Again, I would like to welcome you and thank you for 
your attendance here today. I would like to introduce Ms. Linda 
Reinstein, who is Executive Director of Asbestos Disease 
Awareness Organization; second, Ms. Margaret Seminario, 
Director Safety and Health, American Federation of Labor and 
Industrial Organizations; Dr. Roger McClellan, Advisor, 
Inhalation Toxicology Human Health Risk Analysis; Dr. Robert 
Nolan, Environmental Studies International; Dr. Richard Lehman, 
Assistant Surgeon General, Retired, U.S. Public Health Service; 
and Dr. James Millette, Executive Director of MVA Scientific 
Consultants. We would like to have your 5-minute opening 
statements. Of course, your full testimony has been included in 
the record, and again, thank you for coming.
    Ms. Reinstein.

STATEMENT OF LINDA REINSTEIN, EXECUTIVE DIRECTOR AND COFOUNDER, 
            ASBESTOS DISEASE AWARENESS ORGANIZATION

    Ms. Reinstein. Mr. Chairman, and members of the 
subcommittee, my name is Linda Reinstein. I am honored to 
appear before you as the executive director and cofounder of 
the Asbestos Disease Awareness Organization, ADAO, as an 
independent, nonpartisan volunteer organization, whose goal is 
to provide the most current education resources and support. I 
am neither a lobbyist nor an attorney, only a volunteer, and 
now a mesothelioma widow and a single mother.
    Today, Doug Larkin, T.C. McNamara, U.S. Capitol Tunnel 
Workers, and I represent victims and family who suffered the 
traumatic effects of asbestos diseases due to occupational or 
non-occupational exposure. In 2006, my husband Alan Reinstein, 
lost this 3-year battle with mesothelioma, a cancer caused by 
asbestos. When Alan died, my then 13-year-old daughter and I 
joined thousands of Americans who are mourning the loss of 
loved ones, losses which could have been prevented.
    The use and importation of all asbestos-containing products 
should be banned in the United States. As we discuss a complete 
ban today, your final decision will determined if we will 
continue to allow asbestos to killed Americans, or if Congress 
will pass legacy legislation banning asbestos in any form, any 
product, any use.
    Scientists agree: asbestos is a carcinogen, and there is no 
safe level.
    [Slide.]
    Ms. Reinstein. The penny slide on my left that you are 
looking at compares the nearly invisible deadly fibers just 
under President Lincoln's nose to grains of rice and human 
hair. These virtually indestructible asbestos fibers can be 700 
times smaller than human hair, and remain suspended in air from 
seconds to days. Inhaling or swallowing asbestos fibers 
permanently penetrate lung and other tissue and can cause 
cancer or other respiratory diseases, exacerbated by a latency 
period of 10 to 50 years, these diseases are routinely 
underreported and misdiagnosed.
    More than 10,000 lives will be lost this year. Imagine 
struggling to breathe air through a pinched straw, every 
breath, every minute, every day. As victim's oxygen levels 
become critically low, they are tethered to supplemental oxygen 
to extend their lives. Within 6 to 12 months of diagnosis, the 
average mesothelioma patient dies. Each life lost leaves a 
shattered family behind.
    In hopes of a cure, many patients opt for radical 
treatment, such as having their diseased lung or diaphragm 
surgically removed. We call this death by 1,000 cuts. But 
remember, there are 8,000 more patients dying from other 
asbestos-caused cancers, asbestosis, or respiratory diseases.
    Asbestos has not been banned in the United States. Most 
Americans believe it was banned long ago, and they are shocked 
to learn that asbestos is still a deadly threat. Even today, 
the EPA states that there are 3,000 products containing 
asbestos, yet there is no Federal testing program for consumer 
products or children's toys.
    ADAO commissioned three independent Government-certified 
laboratories to test for asbestos in consumer products found on 
retail shelves. On 11/27/07, we reported five contaminated 
products and a toy. The CSI fingerprint on the table today has 
tremolite in it, one of the deadliest forms of asbestos, in a 
toy powder, intended to be made airborne by children. Our 
resent results were immediately disclosed to the EPA and the 
CPSC. To the best of our knowledge, neither agency initiated 
action.
    ADAO applauds the U.S. Senate for unanimously passing S. 
742, a landmark bill to reduce asbestos exposure and fund 
educational programs, research, registries, and treatment 
centers. However, S. 742 does not completely ban asbestos use, 
and perpetrates a false sense of security by only prohibiting 
industrial materials, consumer products with greater than 1 
percent by weight. This means that the contaminated products on 
the table, such as the CSI kit would remain legal on store 
shelves.
    Scientific technology has made gigantic strides in asbestos 
detection since the 1970's, and we don't have to compromise 
public health by using antiquated analytical methodology. On 
behalf of ADAO, asbestos victims' families, leading doctors, 
and scientists, I implore you to ban this deadly toxin. We 
believe an immediate ban on all asbestos-containing products is 
fully justified, absolutely necessary and long overdue. One 
life lost to asbestos disease is tragic. Hundreds of thousands 
of lives lost is unconscionable. The United States Congress has 
the opportunity and responsibility to protect Americans from 
these preventable diseases.
    Today, I also brought over 25,000 signatures in petition 
form, asking Congress to please ban asbestos. Thank you.
    [The prepared statement of Ms. Reinstein follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you very much for your testimony. I am very 
sorry for your loss, but I applaud your commitment to engage in 
this discussion and find proper solutions. Thank you very much 
for coming today.
    Ms. Seminario.

 STATEMENT OF MARGARET SEMINARIO, DIRECTOR, SAFETY AND HEALTH, 
     AMERICAN FEDERATION LABOR AND CONGRESS OF INDUSTRIAL 
                         ORGANIZATIONS

    Ms. Seminario. Chairman Wynn, Ranking Member Shadegg, I 
appreciate the opportunity to testify today on behalf of the 
AFL/CIO, on legislation to ban asbestos. The AFL/CIO strongly 
supports Federal legislation to ban asbestos. We applaud the 
efforts of Senator Murray to champion and guide the passage of 
legislation in the Senate and the efforts of this committee to 
initiate similar legislative activity in the House of 
Representatives.
    Without question, exposure to asbestos has resulted in the 
greatest occupational health epidemic in the Nation's history, 
in actually the world's history. Hundreds of thousands of 
workers have died from asbestosis, lung cancer, mesothelioma, 
and other cancers, and the mesothelioma cases are still 
increasing. In 2004, there were over 2,600 mesothelioma deaths 
reported.
    For decades, the AFL/CIO and our affiliated unions have 
fought to protect workers from the hazards of asbestos. 
Immediately following the passage of the Occupational Safety 
and Health Act, we petitioned for emergency action by OSHA, and 
the first OSHA asbestos standard was issued, but it was not 
protective, and so we continued, through petitions, through 
litigation, through Congressional action, moving forward to 
strengthen the standard, moving into a stronger standard in the 
mid-1970s, 1980s, and finally in 1994 the issuance of the 0.1 
fibers/cc standard by OSHA.
    But these standards, actually, have not been sufficient to 
protect workers. The early standard didn't address the asbestos 
cancer risk that was posed, and even the existing standard, 
according to OSHA and according to NIOSH, leave workers at 
significant risk of harm. That standard, the 0.1 fibers/cc, was 
again set based on the limits of detection. It was not set as a 
level to protect workers.
    But it is important to recognize, even though we had a 
legally binding standard, that there are still many, many 
workers exposed to asbestos because of the volume of asbestos 
that is in palace. It is largely among construction workers, 
maintenance workers and other who continue to be exposed. And 
last year, in 2007, OHSA reported that there were 761 
violations of its asbestos standard, and those were just the 
violations that they saw and that they were able to document, 
and we know the situation is much more far reaching.
    I think most people don't know that in the mining industry, 
for those workers, they are still legally allowed to be exposed 
to 2 fibers per cubic centimeter. That is a level that was last 
set by OSHA in 1986. And here, 22 years later, in the mining 
industry, we still have workers legally exposed to those 
levels. We are hoping that MSHA will move on that, and we 
expect them to do so, but again, they are exposed to very, very 
high levels of asbestos, and It is not only the workers who are 
at risk. As we have heard, we have family members who are 
exposed, the take-home exposures and the exposures among the 
public from exposures in communities like Libby, Montana.
    Our experience with this devastating epidemic, and the 
difficulty of controlling exposures, even with the legal 
standards, over the long life span of this product led us to 
the conclusion many years ago that asbestos should be banned. 
We simply must remove asbestos from the stream of commerce in 
this country.
    Let me turn, now, to S. 742 and the committee print. We 
believe that the goal of asbestos-ban legislation should be to 
stop the introduction of asbestos into the stream of commerce 
as quickly as possible. And given the potential for serious 
health affects at low levels of exposure and great difficulty 
in controlling exposures over the lifecycle of this product, we 
believe that the goal of the legislation should be to apply the 
ban on asbestos as broadly as possible. And to this end, we do 
have real concerns about the 1 percent threshold for the 
application of the asbestos ban that is in the Senate bill. In 
our view, and as we have heard from others, this threshold will 
allow levels of asbestos contamination that have a real 
potential to pose a significant health risk to workers and the 
public.
    And let me, just again, do a comparison. We heard from the 
previous witness, from Mr. Meeker, that exposures with 1 
percent could result in exposures to 100 million fibers. The 
OSHA limit is 0.1 fibers per cubic centimeter. The exposure 
limit, single exposure, is one fiber. One hundred million 
fibers from 1 percent compared to a legal limit of one fiber: 
that gives you some sense of the level of exposure that would 
be allowed under 1 percent and how they compare to what is 
legally required right now.
    Let me just, also, say that with respect to the way the 
bill is crafted, again, we think that the ban should be broad. 
We think the 1 percent exclusion should be eliminated and to 
the extent that we have to deal with particular area of concern 
and feasibility issues that those should be dealt with through 
narrowly-crafted exemptions. So we support the exemption-based 
approach, crafted as narrowly as possible.
    Let me also say that with respect to the implementation of 
the ban, the Senate bill allows for 2 years. We think that if 
this is done, statutorily, that we should be looking at doing 
this in a much quicker fashion, 6 months or year.
    And let me just conclude by saying that the Senate bill 
mandate for the various health studies and for the treatment 
centers that are provided for, we think are very, very 
important, and we would encourage the full committee and the 
health subcommittee to take up these provisions as well.
    So let me just conclude and say that asbestos has been 
responsible for the deaths of hundreds of thousands of 
Americans. The terrible legacy continues, and we urge the 
committee to move quickly and to adopt strong protective 
asbestos-ban legislation. Thank you.
    [The prepared statement of Ms. Seminario follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you for your testimony. Dr. McClellan.

STATEMENT OF ROGER O. MCCLELLAN, ADVISOR, TOXICOLOGY AND HUMAN 
                      HEALTH RISK ANALYSIS

    Mr. McClellan. Good afternoon, Chairman Wynn and Ranking 
Member Shadegg. Thank you for the invitation to present my 
views on S. 742 and draft legislation to ban asbestos in 
products. It is an honor and a privilege to again have the 
opportunity to testify before this committee on the scientific 
basis of important proposed legislation.
    I request that my testimony be entered into the record as 
though it was read in its entirely. My testimony today draws on 
more than four decades of experience working in air-quality 
issues. The testimony I offer today also draws on experience 
serving on numerous scientific advisory committees for the U.S. 
Environmental Protection Agency, including service as chair of 
their Clean Air Scientific Advisory Committee. I have also 
served on advisory committees to many of the other Government 
agencies that have been concerned with air-quality issues, the 
National Research Council, the Institute of Medicine, and 
international agencies such as the World Health Organization 
and the International Agency for Research on Cancer.
    I am testifying today at the required of an ad hoc group of 
associations who shared concern is the clarity of distinction 
between asbestiform fibers and non-asbestiform fibers. However, 
the opinions that I express today are those of my own personal 
scientific views. My testimony is grounded in a conviction that 
scientific information should inform legislation and agency 
policy judgments that are required to protect public health.
    As I begin my scientific comments, I want to emphasize that 
I support the central theme of the proposed legislation, which 
is to ban asbestos and protect public health. However, in 
pursing that very appropriate and laudable goal, it is 
important that we not cause unintended consequences via the 
legislation that will impact on industries that are not 
involved in terms of the use of asbestos.
    So I have five keys points I would like to bring to you 
today. Number one, a clear and accurate definition of asbestos 
and asbestiform minerals, for example, as EPA defined them in 
1993, and I have attached my testimony, the direct quote from 
that EPA document. Two, the importance of the use of validated-
and I want to emphasize validated, reliable-test methods for 
the collection of samples, and then sample preparation and 
processing and analysis that specifically identified asbestos 
and asbestiform minerals while also distinguishing them from 
non-asbestiform materials in a mixed-dust environment as 
generally found in mines and quarries.
    Three, as a staring point, it is appropriate to maintain 
the existing Toxic Substances Control Act threshold limit 
related to asbestos with provisions for change in the threshold 
limit when justified by new scientific findings indicative both 
of need to define the threshold level as a risk-management tool 
to protect public health, as well as an ability to put in place 
lower limits that can be reliably used in practice.
    Fourth, it is crucial that any legislation that is enacted 
recognize the unique physical characteristics of asbestiform 
materials that cause them to pose a health hazard as contrasted 
with the physical characteristic of non-asbestiform materials 
that may have a similar chemical composition but in a non-fiber 
form do not pose a health hazard like that of asbestos. This 
difference between asbestiform materials that are hazardous and 
rocks that are not hazardous is apparent from consideration of 
figure 1, which I have attached to my testimony.
    Five, the potential impact of misclassifying ordinary rocks 
as being asbestos-like is apparent from considering figure 
three. As even a cursory view of this map will indicate, much 
of this country is covered by these minerals. I can point to 
where I was born in the State of Minnesota, point to my good 
friend's neighboring state, Arizona, New Mexico, where I live 
today, and you will see much of the Western U.S., areas in the 
East that are covered with these minerals.
    In avoidance of their health risk, it is also important 
that those risk-management procedures not inappropriately 
impact on the use of non-asbestiform minerals that do not pose 
a health hazard like asbestos. Thank for your attention, and I 
look forward to addressing your questions later.
    [The prepared statement of Mr. McClellan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you for your testimony. Dr. Nolan.

   STATEMENT OF ROBERT P. NOLAN, INTERNATIONAL ENVIRONMENTAL 
                      RESEARCH FOUNDATION

    Mr. Nolan. Thank you. I want to say I am very familiar with 
the health effects associated with the inhalation of asbestos, 
having been born in Paterson, New Jersey, where an asbestos 
factory produced insulation for U.S. ships in the Second World 
War. As I was growing up in the 1960s, sufficient time had 
passed that several of my neighbors who had worked decades 
earlier in this factory and developed asbestos-related disease. 
More than twice as many people died from asbestos-related 
disease in Paterson, New Jersey than in Libby, Montana upon the 
occupationally exposed.
    I took a serious interest in understanding how and why this 
happened. I joined Dr. Irving Selikoff's group at Mount Sinai 
School of Medicine in New York. At the time, he was a world 
leader in asbestos research and a long-time resident of New 
Jersey. I also shared his opinion that a ban of asbestos was 
not necessary and it was an old idea that had been seriously 
considered and rejected when it was found not to be supported 
by the facts. I have a doctoral degree in chemistry, and I am a 
member of the faculty of both chemistry and environmental 
science in the City University of New York's graduate center. I 
also want to put in a kind word for the Fifth Circuit Court of 
Appeals. I think the decision had a lot more wisdom in it than 
people might think. And I pick out their key phrases that the 
EPA filed to muster substantial evidence, and I believe that 
that standard still has not been met. There is not substantial 
evidence for this.
    I support much of what Dr. McClellan said. I think it is 
very important that if you are going to ban asbestos that you 
ban asbestos minerals, and you be very careful that you 
mineralogically correctly define what you are doing. I was 
criticized a little earlier by one of your colleagues 
concerning OSHA. OSHA does not regulate non-asbestos fibers in 
a rulemaking in 1991, and I will produce that rulemaking for 
you and specific quotes that support the statement that was 
read from my testimony.
    And I also somewhat agree with the richterite, winchite, 
and erionite idea. Erionite is a fibrous zeolite. It has never 
been referred to as asbestos. It can occur with an asbestiform 
morphology, and it is a group 1 carcinogen, according to IRAC, 
but an erionite related mesothelioma has never been reported in 
the United States.
    Now, if you want to include winchite and erionite and 
richterite in the ban, I would ask you to put asbestiform as a 
modifier so that you specifically focus on that material.
    Dr. McClellan covered some of the other points that I 
wanted to make, but I want to make two very specific points. 
You talked about the 1 percent limit of detection, whether it 
is 1 percent asbestos. Now, you may not be aware of this, but 
an asbestos ore that is beneficiated from mining is 2 to 4 
percent asbestos. So a low-grade asbestos ore would be 1 
percent asbestos. One percent asbestos is visible in the rock. 
It was not an analytical method that determined the limit of 
detection was 1 percent asbestos. Asbestos develops in the 
cracks of dilated rock, and seams of asbestos at 1 percent are 
visible in the rocks. There are very few rocks in the United 
States that are 1 percent asbestos. There are very few 
materials that are 1 percent asbestos. As Dr. McClellan brought 
out, you really need to know how much fibers are liberated from 
this. You need air monitoring. And contrary to what you heard 
earlier, this is what the Inspector General complained about at 
the World Trade Center in New York and at Libby, Montana, that 
they did not have a health-based standard, and they are still 
not doing that, and there are two Inspector General reports 
that are referred to in my testimony.
    Now, the other thing that I would ask the committee to do 
is the number of asbestos-related diseases that occur in the 
United States has been bantered around for decades. At one 
time, NCI and NIH claimed 2 million Americans would die over 30 
years. That would have ended in 2008. It is 66,000 deaths per 
year. Several of your committee members mentioned 10,000 
asbestos-related deaths per year this morning. I would 
challenge that figure. That is not a Government figure, and if 
you look at the number that NIOSH actually produced for the 
hearing that they had in the Senate, the number of mesothelioma 
deaths is about 2,500 per year, and they are claiming about 
1,400 asbestosis deaths, and they didn't specify how many lung 
cancer deaths.
    The Environmental Working Group is not a Government agency, 
and I try to rely on Government statistics for this, and I 
would like the committee to request NIOSH or NCI to give them 
what is an accurate estimate for asbestos-related disease in 
the United States today.
    And the one other thing that I want to make clear, one 
American male in 600 will die of mesothelioma. That is 0.17 
percent. There are 2002 deaths in the three large chrysotile 
cohorts in the United States, Charlestown, South Carolina, the 
cement workers in Louisiana, and friction-product workers in 
Connecticut. In that group, there are three mesotheliomas. 
Their percent of mesothelioma is 0.15 percent. It is lower than 
the general population. Now, I am not saying that chrysotile 
doesn't cause disease, but mesothelioma is not associated with 
chrysotile exposures.
    Thank you.
    [The prepared statement of Mr. Nolan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you very much, Dr. Nolan. Dr. Lemen.

STATEMENT OF RICHARD A. LEMEN, PRIVATE CONSULTANT, OCCUPATIONAL 
       SAFETY AND HEALTH EPIDEMIOLOGY, AND PUBLIC HEALTH

    Mr. Lemen. Yes, my name is Richard Lemen, and I am a 
retired Assistant Surgeon General of the United States, and I 
also spent most of my career with the National Institute for 
Occupational Safety and Health and have been studying the 
health effects of asbestos for the last 37 years.
    It was 31 years ago that the institute that I spent so many 
years with recommended a revised standard for asbestos, and in 
that revised standard, it was the first time that I know of any 
governmental agency saying that only a ban would prevent 
asbestos-related diseases in the workplace.
    I would like to thank Chairman Wynn and Mr. Shadegg and the 
entire Committee on Environment and Hazardous Materials for the 
honor of being able to testify before you today. I am here to 
support the efforts of the both the United States House of 
Representatives and the United States Senate to ban asbestos in 
the United States. This ban will represent a monumental public-
health achievement for the United States and its citizens in 
preventing asbestos-related diseases to workers and the public, 
and I commend the efforts of the United States Congress for 
their work in this endeavor.
    I would disagree a little bit with my colleague Dr. Nolan 
in that the 10,000 figure is an estimate that was adopted by 
OSHA in a risk assessment done by another colleague of Dr. 
Nolan's, Dr. Nicholson at Mount Sinai School of Medicine, so by 
default, it is somewhat of a government figure because it is 
mentioned in the hearings and in the testimony to OSHA for 
their standard.
    And also, I might say the only occupationally induced dust 
disease of the lungs that continues to increase each year in 
the United States is asbestosis. And this is also true for 
mesothelioma, which is a signal tumor for exposure to asbestos.
    I would also like to say that while this country has 
experienced in asbestos-induced disease epidemic that continued 
to grow worse, it is now shifting from the workplace to the 
non-occupationally expose victims. I would like to provide some 
data which would shed light on the reasons for keeping the 
fiber definition that is in these bills. From my years at 
NIOSH, I know research have found among miners and millers 
mesothelioma from two counties in Northern New York and new 
cases continue. We have also seen mesothelioma occurring in the 
taconite miners in Minnesota, and we have already heard about 
the experience in Libby, Montana.
    Dr. Rohl and Dr. Langer at the Mount Sinai School of 
Medicine support the idea that substances other than asbestos, 
like talc, because of its composition, contain conditions of 
formation and geological occurrence frequently contaminated 
with asbestos fibers.
    I am glad that this bill goes beyond regulatory fibers and 
includes fibers less than 5 microns in length. I would like to 
say that a study just published by NIOSH actually shows that 
fibers shorter than 5 microns in length do cause statistically 
significant excesses in asbestosis as well as lung cancer. I 
would also like to say that pathological studies dating back to 
1933 show that it is the short fibers that actually end up in 
the areas outside of the lung where the mesothelioma is 
occurring.
    I also would like to say that we must continue to rely not 
on the antiquated analytical methods, but on new and modern 
methods, and we must take into consideration health 
considerations and not just analytical consideration.
    As far as exemptions, I think I agree very much Ms. 
Seminario that they should be very limited and carefully 
thought out, and that they should be based upon health 
consideration as well as needed use.
    I also would like to say that an exception for the chlorine 
manufacturing industry must recognize the inherent dangers of 
both the worker and the public from the continued use of 
asbestos in this industry. New, non-asbestos-using processes 
are available, and they operate at much less energy than the 
other processes, by about 15 to 20 percent.
    And finally, I have just a few suggestions for the bill. If 
currently using asbestos in a product at the time of the ban's 
effective date, it is my suggestion, then, that 6 months only 
be used for the application and approval for the exemptions, 
and obviously, as the bill states, nothing can be sold or used 
during this time period. Second, the disposal requirement 
doesn't go into place until many years after the ban. This 
should be shorter. And I would also like to say that I would 
like to see the bill include a provision for a national survey 
of extraction activities to find out just how extensive this is 
and also what are the potential health effects. And finally, I 
would like to say that I support the EPA's testing. In addition 
to testing the bulk samples for percentages, they need to test 
in the under-use conditions and in under-disturbance 
conditions.
    So with that, I would like to conclude my testimony, and I 
ask that my full comments be added to the record of this 
hearing.
    [The prepared statement of Mr. Lemen follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you, Dr. Lemen. Dr. Millette.

    STATEMENT OF JAMES R. MILLETTE, EXECUTIVE DIRECTOR, MVA 
                     SCIENTIFIC CONSULTANTS

    Mr. Millette. Thank you for the opportunity to testify for 
you today. My name is Jim Millette. I am an environment al 
scientist. I have been involved with the analysis of asbestos 
since 1974. I have a degree in physics and a masters in 
environmental science and a PhD School of Engineering, 
University of Cincinnati. My work history includes 11 years at 
the U.S. Environmental Protection Agency, where I was working 
on method-development for asbestos issues. I teach one of the 
few courses in the United States on the analysis of asbestos 
using the transmission electro-microscope. I am currently the 
chair of the American Society for Testing and Materials. That 
is ASTM International, Subcommittee D2207, that deal 
specifically with the development of asbestos methods. And I 
would like to recognize the gentleman that I took over for, 
Mike Beard. He and I have worked many, many years, 10 years, on 
this committee, developing methods using the consensus 
approach, where we have members from industry, government, 
individual laboratories, working on developing methods that we 
agree upon.
    My testimony today concerns the U.S. legislation that we 
have been discussing concerning asbestos. I would like to make 
five basic points in my testimony. The first is that 
currently--that is today--laboratories across the United 
States, commercial and government, are performing analysis for 
clients using a variety of bulk asbestos methods and reporting 
levels of less than 1 percent. In the last 35 years, since the 
EPA initiated the 1 percent level for bulk materials, 
analytical methods have developed to the point where we can 
reliably measure less than 1 percent, and we can certainly 
measure to 0.25 percent, which I feel we can do on a regular, 
reliable basis.
    But there are differing opinions as to the best procedure 
in which to analyze for asbestos. Because some methods involve 
different preparation procedures than others. Some involve 
grinding the sample, and other involve sieving or using other 
procedures. All of these can be used, but there are 
differences, and so as you heard before from Mr. Meeker, if you 
send a sample to two different laboratories, they may not come 
out with exactly the same result.
    However, there are procedures for measuring asbestos at the 
1 percent level, where we now have reliable inter-laboratory 
comparisons that show fairly consistent results, and so if we 
decide to go to a less than 1 percent level, I am sure that can 
be achieved.
    I support the provision in the committee print that the 
Administrator shall issue guidance in establishing the test 
method for purposes of compliance with this paragraph. I think 
it is important that the Administrator provide the guidance so 
that those of us developing methods for the work that needs to 
be done will all start with the same basic assumptions.
    Apart from the questions of quantification of asbestos in 
bulk samples, the characteristics of what is asbestos must be 
addressed by the method and then universally accepted by the 
laboratories analyzing the samples. As we discussed earlier, 
the difference between asbestiform fibers and cleavage 
fragments is something that is in dispute. There is a 
difficulty not in looking at the obvious situation where you 
have a rock versus an asbestos fiber, but those situations in 
the middle where you may have a mixture of fiber sizes, and 
they clearly overlap.
    There are some proposed procedures that are in the 
scientific literature to distinguish between asbestos fibers 
and cleavage fragments, but these have not been validated. And 
the research work that I am conducting in attempting to 
validate some of these procedures, looking at one particular 
procedure, we found that over 50 percent of the fibers, if we 
use this procedure and look at a sample of NIST standard 
reference materials would be rejected as non-asbestos. That is 
essentially saying that here is a sample that NIST says is a 
standard reference of tremolite asbestos, and if you apply this 
particular proposed procedure to discriminate and eliminate the 
cleavage fragments, you would essentially eliminate 50 percent 
of the asbestos fibers in that sample, so work needs to be done 
to fine-tune that particular area. It is my intention that the 
committee will find an agreement on the definition of asbestos 
and will continue to work on the best way to measure its 
concentration.
    I would like to add one further comment. In my review of 
Dr. Nolan's written testimony, he talked about the best 
procedure was using air monitoring, rather than bulk analysis. 
I disagree. I think that bulk analyses are necessary to 
determine the amount of asbestos in materials. If we don't have 
something like that, a material such as the CSI box that you 
see down at the end of the table, we would have no way of 
determining that that did not meet the regulations.
    [The prepared statement of Mr. Millette follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wynn. Thank you for your testimony. I would like to 
thank all of the witnesses. At this time, the chair would 
recognize himself for 5 minutes for questions. The first 
question is to Ms. Seminario, Dr. Lemen, and Dr. McClellan. Do 
you agree that the 1 percent asbestos threshold is not a 
health-based number?
    Mr. Lemen. Yes, I do.
    Ms. Seminario. Yes, 1 percent is not health based.
    Mr. Wynn. Dr. McClellan?
    Mr. McClellan. It is a screening value that is not health-
based. To be health-based, you have to have, ultimately, a 
linkage to what is in the air and to risk.
    Mr. Wynn. OK, thank you. Do you agree that the 1 percent is 
not a risk based number?
    Mr. Lemen. I agree with that.
    Mr. McClellan. As I said, it is a screening level based on 
analytical considerations and a policy judgment that was put in 
place by legislation.
    Mr. Wynn. Thank you, Ms. Seminario?
    Ms. Seminario. It is not risk based.
    Mr. Wynn. OK, it is stated that the 1 percent threshold 
concept was related to the limit of detection for analytical 
methods available at the time, 1973, and that analytical 
methods have advanced and improved significantly in the past 35 
years.
    Mr. Lemen. I certainly agree that analytical methods have 
advanced, and we can go much lower than that, and that was the 
consideration at the time, but it is out of date and antiquated 
today.
    Mr. Wynn. Thank you. Anyone else care to comment? Ms. 
Seminario?
    Ms. Seminario. Yes, I agree that it is a limit that is out 
of date.
    Mr. Wynn. Doctor, I don't want to cut you off. You seem 
anxious, but you have got to be short.
    Mr. Nolan. Yes, I think that any graphometrical percentage 
standard is not going to be risk based, whether it is 0.25, 
0.01, 2, 1. It doesn't matter.
    Mr. Wynn. OK.
    Mr. Nolan. In 1973, it was very easy to determine that 
something was 1 percent asbestos.
    Mr. Wynn. Thank you.
    Mr. McClellan. It is important to recognize that because we 
have improved analytical techniques does not necessarily mean a 
screening value--and that is all it can be when you are working 
with a bulk sample--would be lower, necessarily. It could be 
higher when it is risk based. That is a determination that 
would have to be made on a policy basis.
    Mr. Wynn. OK, I wanted to ask a couple of questions. Dr. 
Nolan, you basically just said we shouldn't deal with banning 
asbestos. Is that correct?
    Mr. Nolan. I have been opposed to a ban of asbestos for a 
long time.
    Mr. Wynn. So that means you would find that that CSI 
product is acceptable for children?
    Mr. Nolan. I didn't say that. I said----
    Mr. Wynn. Well, we are proposing to impose a ban on a 
product like that. You say you are opposed to bans.
    Mr. Nolan. I would not recommend what exactly happened, 
that that should be referred to the Consumer Product Safety 
Commission, and they should make a recommendation. They banned 
asbestos from paper-mache, from certain kinds of other consumer 
products. That is fine.
    Mr. Wynn. OK, thank you.
    Ms. Reinstein, I believe your testimony is that the CPSC 
hasn't done anything on this issue. Is that correct?
    Ms. Reinstein. You are absolutely right. Neither the EPA or 
the CPSC has responded to our multiple faxes and comprehensive 
packet with all the science. No response.
    Mr. Wynn. Ms. Seminario, one of the things I believe you 
talked about was the need for an expeditious approach to 
banning asbestos. Comparing the committee print with the Senate 
bill, do you believe the committee print offers a more 
expeditious approach?
    Ms. Seminario. The committee print would do it statutorily, 
so you wouldn't have to go through a rulemaking process, so 
once the Congress decides that is what they want to do, that 
would be done. So if that is the case, then the question is why 
wait 2 years? I mean both bills provide for a 2-year period, 
and I would say just go ahead and do it sooner if you are doing 
it statutorily.
    Mr. Wynn. OK, thank you. Dr. McClellan, you seemed your 
biggest concern was that we make sure we distinguish between 
asbestos and non-asbestos particles. Is that an accurate----
    Mr. McClellan. That is correct. I think that is very 
important.
    Mr. Wynn. OK, and Dr. Millette, is it your sense that we 
have the capability to make that distinction? You seem to have 
testified that we actually did that.
    Mr. Millette. Well, there are several proposed procedures 
for doing that type of thing. We have not standardized that, 
and that is something that would have to be done for the 
compliance method.
    Mr. Wynn. Now, the bill provides for EPA guidance, so would 
it be fair to say that you would advocate that kind of guidance 
from EPA?
    Mr. Millette. That is correct. That would be necessary.
    Mr. Wynn. Thank you. I don't have any further questions. At 
this time, I yield to the ranking member, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman, and I want to begin 
by saying, Ms. Reinstein, my sympathies to you and your loss, 
and I commend you for your work. This is an important thing you 
are doing, and it is important that we try to do it right. 
There are differences in these two bills, and we need to try to 
get them right when they finally pass and become law.
    To that point, both you and Ms. Seminario, and both the 
AFL/CIO and Asbestos Disease and Awareness Organization 
supported S. 742 when it passed. What you find is this is an 
improvement upon that. Is that correct?
    Ms. Reinstein. I testified at the EPW committee for a ban 
of asbestos-containing product. What finally passed the Senate 
was asbestos-containing material, which we did not support.
    Mr. Shadegg. Well, I have a letter that says you are a 
signatory group that supported the passage of that bill. Is 
that letter not correct?
    Ms. Reinstein. That letter is correct on that date. I was 
not aware until October 23 that that language had been changed.
    Mr. Shadegg. Fair enough. And Ms. Seminario?
    Ms. Seminario. We have supported the legislative efforts in 
the Senate. As Mrs. Reinstein said, unfortunately in the 
legislative process, the bill was changed. It was significantly 
changed to allow for the 1 percent exemption across the board, 
which we don't think is warranted.
    Mr. Shadegg. It is pretty clear that we have this 1 
percent, and I think we have a zero standard. And the question 
is should it be zero? I mean I have heard a lot of testimony 
today it shouldn't be 1 percent, but I have also heard the 
issue that 1 percent is a confusing standard because the 1 
percent is 1 percent by weight, and I think there is a lot of 
testimony that that is not the right way to establish the 
standard. What the standard should be is not how much is in 
this glass, but how much will damage me if I ingest it. And I 
think some people say the answer is zero and the question is, 
OK, well, then we have a standard of zero.
    Let me just move on. Dr. McClellan, as I understand your 
testimony, you think it is vitally important that we draw the 
line, essentially between asbestiform materials and non-
asbestiform materials, and in the simple language of some of 
the people in this room who are just trying to speak English, 
you are talking about rock products that are not fibrous, do 
not have asbestos form, and asbestos products that have the 
asbestos form. They have the characteristics of that. Is that 
correct?
    Mr. McClellan. That is absolutely correct.
    Mr. Shadegg. Now, here is my concern: this legislation says 
we have got to test every single load that comes out of a sand 
and gravel operation to see if it is under that 0.25 standard, 
and yet I think I hear Dr. Millette--and I am going to let him 
respond to this as well--tell us that, quite frankly, we don't 
know how to test those, at least there is a huge debate. It is 
pretty clear when you have a nice, hard rock, OK, that is not 
asbestos, and then when you have asbestos, that is asbestos. 
But it gets pretty difficult when you get down to what is in 
between, and I guess my concern is, just from a practical 
standpoint, if I am sand and gravel operator, and I go scoop up 
a load and I go take it over and dump it in the dump truck, it 
is airborne at that point, and it creates a risk to workers. In 
Arizona, we have sand and gravel operations near homes, and 
that might create a risk, but can we practically test every one 
of those loads, and are we testing that is a serious threat, 
because that dust is naturally occurring everywhere, or are we 
imposing a standard that is not economically viable in any form 
to achieve no health savings. And I will let you, Dr. 
McClellan, respond to that, and then Dr. Millette and anyone 
else that would like to.
    Mr. McClellan. Well, I think you grasp the nuances of this 
very, very well. It is my understanding that in terms of the 
gravel-related industries, we got about 3 billions tons a year. 
Now, perhaps a third of that, a billion tons a year, is in 
those areas we outlined on the map where there might be some 
element of concern. Obviously, you have to have validated 
methods. You have got to have an approach that is realistic, 
and is going to have a positive health outcome at the end of 
the day. My colleagues have testified we do not have those 
validated methods in place today.
    Mr. Shadegg. In fairness, you need some time.
    Mr. Millette. The methods that we do have that are standard 
methods for analyzing for asbestos have been validated and use 
a definition of asbestos which is very specific, but it 
includes, or could include, some of these cleavage fragments in 
it, and so in trying to validate a new method which would 
distinguish between those two, that is the part that has not 
been done.
    Mr. Shadegg. Can a sand and gravel operator reasonably test 
each dump load into each dump truck? Dr. Nolan, I take it your 
answer to this question would be trying to reach that level of 
certainty is not needed because the threat doesn't merit it.
    Mr. Millette. Correct, and I think it would be similar to 
the problem at looking at all of the drinking water. For 
instance, there is an asbestos regulation in drinking water, 
and there are trillions of gallons that are used through the 
United States. Every one of those places has to be measured at 
one point, but then you develop a procedure where you can do it 
not every time.
    Mr. Shadegg. Right, if the legislation says you are going 
to do a sample a year, fine. If the legislation says every 
single dump truck load, I think we are in trouble.
    Mr. Wynn. First of all, thank you all for your testimony. I 
think it has been very helpful today. I would like to ask 
unanimous consent that the petition that Ms. Reinstein has 
brought with her be entered into the record.
    Also, I would like to ask unanimous consent that the letter 
from the Center for Occupational and Environmental Medicine, 
signed by seven medical doctors, urging Congress to swiftly 
pass legislation be put into the record of this hearing. 
Without objection, so ordered.
    Mr. Shadegg. Without objection.
    Mr. Wynn. Mr. Shadegg, did you have----
    Mr. Shadegg. Yes, I have five citizen letters which have 
been submitted and reviewed by your staff, which I would like 
to ask unanimous consent be included in the record.
    Mr. Wynn. Without objection so ordered.
    Mr. Shadegg. And I would like to ask that additional 
studies that are supplied by witnesses that we requested today, 
which arrive within 5 working days be included in the record as 
well. We have some earlier witnesses who are there----
    Mr. Wynn. We would like to see them. If there are enough 
days, I think we can try to accommodate that. Did you have any 
further----
    Mr. Shadegg. My last request would be that members who were 
not able to be here be allowed the usual 5 days to submit their 
own statements.
    Mr. Wynn. Without objection, so ordered.
    Mr. Shadegg. And if you are going to finish, let me just 
conclude by thanking the witnesses myself. I appreciate your 
testimony. It has been very helpful.
    Mr. Wynn. Thank you all and we appreciate your presence. 
Thank you.
    [Whereupon, at 2:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
